                                    Office of the Inspector General
                    United States Government Accountability Office


GAO/OIG

November 2009
                TESTIMONY
                MEASURE

                Verification of
                Performance Data
                Could Be Improved




GAO/OIG-10-1
Memorandum
Date:         November 18, 2009
To:           Acting Comptroller General Gene L. Dodaro
From:         Inspector General Frances Garcia
Subject:      Testimony Measure: Verification of Performance Data Could Be Improved

As part of the Office of Inspector General’s periodic review of GAO’s performance
measures, we examined the reliability of the fiscal year 2008 performance data for the
agency’s testimony measure. GAO’s testimony measure is defined as the number of
hearings where one or more GAO testimonies were provided. In our random sample of
54 of the 304 hearings reported in the agency’s fiscal year 2008 Performance and
Accountability Report, 1 we found errors that indicated the number of hearings was
slightly less than the 304 reported. 2 Based on the results of our work, GAO’s Office of
Congressional Relations reviewed the fiscal year 2008 performance data and now states
that the number of hearings is 298. The primary reason for the errors was that 5
hearings—at which two GAO officials provided separate testimonies—were counted
twice for a total of 10 hearings. We identified several factors that contributed to these
errors, such as the need to update existing procedures to verify the accuracy of
testimony performance measure data. We are recommending that GAO’s Office of
Congressional Relations revise its procedures to better ensure the accuracy of GAO’s
performance data. Congressional Relations managers state they have corrected the
errors in fiscal year 2008 data and are updating their procedures. In a prior review of this
measure, we found no errors with the fiscal year 2006 data.

Background

GAO’s mission is to support Congress in meeting its constitutional responsibilities and
to help improve the performance and ensure the accountability of the federal
government for the benefit of the American people. To accomplish its mission, GAO
provides objective and reliable information and informed analysis to Congress, federal
agencies, and the public. To help monitor its performance in serving Congress, GAO
uses the testimony performance measure. 3 On occasion, more than one GAO official
may testify at the same hearing. Performance data for this measure comes from GAO’s
Congressional Hearing System, which is managed by the Office of Congressional

1
  GAO, Performance and Accountability Report: Fiscal Year 2008, GAO-09-1SP (Washington, D.C.: Nov. 14,
2008).
2
  See attachment I for a discussion of our methodology.
3
  GAO also uses the timeliness performance measure to help the agency assess its service to Congress.


1                                         GAO/OIG-10-1 GAO Testimony Performance Measures
Relations. Data is entered into the system by administrative staff from (1) organizational
units (generally referred to as mission teams) whose officials are testifying and (2) the
Office of Congressional Relations under limited circumstances. The Congressional
Hearing System captures information, for example, about the date and topic of the
hearing, the name of the committee or subcommittee holding the hearing, and the name
of the GAO witness.

The Government Performance and Results Act of 1993 (GPRA) requires federal agencies
to develop strategic plans with long-term, outcome-oriented goals and objectives; annual
goals linked to the long-term goals; and annual reports on the results achieved. 4 As a
legislative branch agency, GAO is not required to comply with GPRA but generally does
follow the intent of this law. To follow the intent of GPRA, GAO uses a strategic planning
and management process based on strategic goals and objectives. To help monitor its
performance, the agency has developed various performance measures, including the
testimony measure.

Improved Procedures Are Needed to Ensure Accurate Performance Data for
Testimony Measure

We identified a total of eight errors in GAO’s fiscal year 2008 testimony performance
data. From our random sample of 54 hearings, we found six errors. Five of the six errors
resulted from 5 hearings—at which two GAO officials provided separate testimonies—
being counted twice (in this case, as 10 hearings) in the Congressional Hearing System.
The sixth error from our sample was the result of a planned testimony being issued as a
statement for the record and the Congressional Hearing System’s data not being updated
to reflect this change. Statements for the record are not to be included in the testimony
measure. 5 Separate from our sample, we learned about two other errors. The first error
involved a January 2008 testimony that was not entered into the agency’s hearings
database in a timely manner and thus was not included in the total number of hearings
reported for fiscal year 2008. The second error was identified by the Office of
Congressional Relations’ review of fiscal year 2008 testimony performance data. The
error involved a January 2008 hearing, where two GAO officials provided separate
testimonies, that was inadvertently entered twice into the Congressional Hearing
System—and thus was counted as two hearings. Office of Congressional Relations
managers state they have corrected the eight errors.

Our work shows that several factors contributed to inaccurate fiscal year 2008
performance data for GAO’s testimony measure. First, while the Office of Congressional
Relations has internal procedures that in part address maintaining the Congressional
Hearing System database and producing related hearing reports, these procedures do not
specifically mention the testimony measure, its definition, or the performance data. 6 The
procedures also do not include specific steps for checking and testing the performance

4
  GPRA, Pub. L. No. 103-62.
5
  Statements for the record occur when GAO officials do not testify at a congressional hearing and instead submit
statements for inclusion in the congressional record.
6
  Office of Congressional Relations, Congressional Hearing Support Process (For Internal Congressional Relations
Use Only).


2                                            GAO/OIG-10-1 GAO Testimony Performance Measure
data before it is reported in GAO’s annual performance report. For example, our work
compared Congressional Hearing System data to a chronological listing of testimonies in
GAO’s Publications Database, which is a separate information system that includes data
on all GAO publications, such as reports, testimonies, and statements for the record. This
data quality check helped us identify that five of the hearings in our sample had more
than one GAO testimony. GAO’s guidance for assessing performance data emphasizes
periodic testing of the data to verify its accuracy. 7 Office of Congressional Relations
managers agree that their procedures should be updated—a process that has already
begun—in order to clearly specify how to enter data into the Congressional Hearing
System when GAO officials deliver more than one testimony at the same hearing.

Second, while Office of Congressional Relations procedures stress the importance of
updating Congressional Hearing System data when changes occur, one of the errors we
identified happened because data had not been updated when a planned testimony was
issued as a statement for the record. The unit administrative staff member responsible
for updating the data admitted not doing so because she thought statements for the
record would be removed from the database by someone else before the performance
data would be published. In addition, the administrative staff member did not inform the
Office of Congressional Relations of the change, as required. This error also was not
identified by the Congressional Relations administrative staff member, even though the
procedures direct her to check unit-entered data for accuracy and completeness.
Congressional Relations managers told us that the error has now been corrected.

Third, unit administrative staff who enter data in the Congressional Hearing System told
us that it is difficult for them to know when more than one GAO testimony will be
delivered at a hearing. Typically, separate testimonies for a hearing are delivered by
officials that work in different organizational units. Therefore, unit staff stated they are
dependent on someone else—such as the official who is testifying for their unit or Office
of Congressional Relations staff—to inform them if other testimonies will be delivered at
the same hearing. In our sample, all five hearings that had two separate GAO testimonies
were not correctly identified. Office of Congressional Relations managers informed us
that the agency has many ways of knowing that two GAO testimonies will be delivered at
the same hearing. For example, the Office of Congressional Relations receives letters of
invitations for GAO witnesses to testify at hearings.

Finally, a report used to check GAO hearing data was not effective in identifying data
errors related to hearings being counted twice. Specifically, the Congressional Hearing
System’s end-of-year report is not designed to readily identify hearings where two GAO
officials provided separate testimonies, because it lists all testimonies and statements for
                                                                          8
the record according to which agency strategic goal they help achieve. As a result,

7
  GAO, The Results Act: An Evaluator’s Guide to Assessing Agency Annual Performance Plans, GAO/GGD-10.1.20
(Washington, D.C.: April 1998).
8
  GAO has four strategic goals, they are to: provide timely, quality service to the Congress and the federal
government to (1) address current and emerging challenges to the well-being and financial security of the American
people, (2) respond to changing security threats and the challenges of global interdependence, (3) help transform the
federal government’s role and how it does business to meet 21st century challenges, and (4) maximize the value of
GAO by being a model federal agency and a world-class professional services organization.


3                                              GAO/OIG-10-1 GAO Testimony Performance Measure
separate GAO witnesses who represent different goals at the same hearing can be listed
in different parts of the report. For example, the testimony of one witness at an April 24,
2008, hearing, is listed under goal one on page 6 of the fiscal year 2008 hearings report,
while the testimony of a second GAO witness at this hearing is listed under goal three on
page 26 of the report. To reduce the risk of miscounting hearings, staff from the Office of
Congressional Relations told us that they have requested the development of an
additional report from the Congressional Hearing System. This new report will list
testimonies and statements for the record by the date of the hearing rather than by
agency strategic goals. The intent is to provide an additional data quality check by
manually reviewing the report periodically to identify hearings with more than one GAO
witness. Office of Congressional Relations managers believe—and we agree—that this
new report will help better ensure the accuracy of testimony performance data.

Conclusion

We believe the actions initiated by the Office of Congressional Relations—updating its
procedures and developing a new report from the Congressional Hearing System—will
help reduce the risk of future errors in GAO testimony performance data. As procedures
are updated, we believe consideration should be given to adding specific steps that
address the three types of data errors identified in our review: (1) the miscounting of
hearings where more than one GAO testimony is presented, (2) not properly updating
hearing data when a planned testimony is not presented, and (3) untimely posting of
data. In addition, we believe that steps are needed to verify the accuracy of testimony
performance data prior to their publication in GAO’s annual performance report.

Recommendation

We recommend that the Acting Comptroller General direct the Managing Director of the
Office of Congressional Relations to include in its revised procedures specific steps for
addressing the type of errors identified in our review and for verifying the accuracy of
testimony performance data prior to their publication.

Agency Comments

The Inspector General provided GAO with a draft of this report for review and comment.
GAO agreed with our recommendation. The agency also provided technical comments
that we incorporated, as appropriate.

Actions taken in response to our recommendations are expected to be reported to my
office within 60 days.

                               _____________________

We are sending copies of this report to the other members of GAO’s Executive
Committee (the Chief Administrative Officer and the Acting General Counsel), the
Managing Director of the Office of Congressional Relations, and GAO’s Audit Advisory


4                                   GAO/OIG-10-1 GAO Testimony Performance Measure
Committee. The report also is available at no charge on the GAO Web site at
http://www.gao.gov.

If you or your staff have any questions about this report, please contact me at (202) 512-
5748 or garciaf@gao.gov. Contact points for GAO’s Offices of Congressional Relations
and Public Affairs may be found on the last page of this report. Key contributors to this
report were Cathy Helm (Deputy Inspector General) and Kurt Kershow.

Attachments




5                                   GAO/OIG-10-1 GAO Testimony Performance Measure
Attachment I
                                     Methodology

To determine if GAO has reliable data for its testimony performance measure, we used a
random sample of 54 of the 304 hearings reported for GAO’s fiscal year 2008 testimony
performance data. Performance data for this measure come from the Office of
Congressional Relations’ Congressional Hearing System. For the 54 hearings, we
examined the system’s data in several ways to assess the data’s accuracy. First, we
compared Congressional Hearing System data to information on congressional
committee and subcommittee Web sites to verify
    • the date of the hearing,
    • the topic of the hearing,
    • the name of the committee or subcommittee holding the hearing, and
    • the GAO witness providing the testimony.

Second, we reviewed the Congressional Hearing System’s report of fiscal year 2008 data
to see if any hearings in our sample had more than one GAO witness and if these
hearings were accurately counted. Third, as an additional check to see if hearings in our
sample were accurately counted, we compared Congressional Hearing System data to a
chronological listing of fiscal year 2008 testimonies in GAO’s Publications Database.

For errors we identified in fiscal year 2008 performance data, we conducted interviews
with and obtained related documents from administrative staff and managers
responsible for the accuracy of data for the hearings in our sample in order to
understand why the errors occurred. In addition, we interviewed managers and staff in
GAO’s Office of Quality and Continuous Improvement, which has overall responsibility
for the annual performance report, to determine whether they verify the accuracy of
testimony performance data. Finally, we assessed the effectiveness of internal controls
for ensuring the reliability of the performance data.

We conducted this performance audit from March 2009 to November 2009 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




6                                   GAO/OIG-10-1 GAO Testimony Performance Measure
Attachment II
                Comments from the Office of Congressional Relations




(998277)




7                                 GAO/OIG-10-1 GAO Testimony Performance Measure
                          To report fraud, waste, and abuse in GAO’s internal operations, do one of
Reporting Fraud,          the following. (You may do so anonymously.)
Waste, and Abuse in
                      •   Call toll-free (866) 680-7963 to speak with a hotline specialist, available
GAO’s Internal            24 hours a day, 7 days a week.
Operations
                      •   Send an e-mail to OIGHotline@gao.gov.

                      •   Send a fax to the OIG Fraud, Waste, and Abuse Hotline at (202) 512-
                          8361.

                      •   Write to:
                          GAO Office of Inspector General
                          441 G Street NW, Room 1808
                          Washington, DC 20548
                          To obtain copies of OIG reports and testimony, go to GAO’s Web site:
Obtaining Copies of       www.gao.gov/about/workforce/ig.html.
GAO/OIG Reports and
Testimony

                          Ralph Dawn, Managing Director, dawnr@gao.gov, (202) 512-4400
Congressional             U.S. Government Accountability Office, 441 G Street NW, Room 7125
Relations                 Washington, DC 20548

                          Chuck Young, Managing Director, youngc1@gao.gov, (202) 512-4800
Public Affairs            U.S. Government Accountability Office, 441 G Street NW, Room 7149
                          Washington, DC 20548




                          This is a work of the U.S. government and is not subject to copyright protection in the
                          United States. The published product may be reproduced and distributed in its entirety
                          without further permission from GAO. However, because this work may contain
                          copyrighted images or other material, permission from the copyright holder may be
                          necessary if you wish to reproduce this material separately.




                                 Please Print on Recycled Paper
